<html>
<title> - CHALLENGES FACING LAW ENFORCEMENT IN THE 21ST CENTURY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


         CHALLENGES FACING LAW ENFORCEMENT IN THE 21ST CENTURY

=======================================================================

                                 HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 17, 2017

                               __________

                           Serial No. 115-16

                               __________

         Printed for the use of the Committee on the Judiciary
         
         
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]         
         


      Available via the World Wide Web: http://judiciary.house.gov
                       
                              __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-234                       WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f097809fb09385838498959c80de939f9dde">[email&#160;protected]</a>                      
                       
                       
                       
                       
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
  Wisconsin                          JERROLD NADLER, New York
LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr., 
TRENT FRANKS, Arizona                    Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
TOM MARINO, Pennsylvania             HAKEEM S. JEFFRIES, New York
TREY GOWDY, South Carolina           DAVID CICILLINE, Rhode Island
RAUL LABRADOR, Idaho                 ERIC SWALWELL, California
BLAKE FARENTHOLD, Texas              TED LIEU, California
DOUG COLLINS, Georgia                JAMIE RASKIN, Maryland
RON DeSANTIS, Florida                PRAMILA JAYAPAL, Washington
KEN BUCK, Colorado                   BRAD SCHNEIDER, Illinois
JOHN RATCLIFFE, Texas
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona
          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 
                                 ------                                

 Subcommittee on Crime, Terrorism, Homeland Security and Investigations

                  TREY GOWDY, South Carolina, Chairman
                  LOUIE GOHMERT, Texas, Vice-Chairman
JIM SENSENBRENNER, Jr., Wisconsin    SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   TED DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
JOHN RATCLIFFE, Texas                HAKEEM JEFFRIES, New York
MARTHA ROBY, Alabama                 TED LIEU, California
MIKE JOHNSON, Louisiana              JAMIE RASKIN, Maryland
                            
                            C O N T E N T S

                              ----------                              

                              MAY 17, 2017
                           OPENING STATEMENTS

                                                                   Page
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................     0
The Honorable John Conyers, Jr., Michigan, Ranking Member, 
  Committee on the Judiciary.....................................     0
The Honorable Trey Gowdy, South Carolina, Chairman, Subcommittee 
  on Crime, Terrorism, Homeland Security & Investigations, 
  Committee on the Judiciary.....................................     1
The Honorable Sheila Jackson Lee, California, Ranking Member, 
  Subcommittee on Crime, Terrorism, Homeland Security & 
  Investigations, Committee on the Judiciary.....................     3

                               WITNESSES

Sheriff Jim McDonnell, Los Angeles County Sheriff's Department
  Oral Statement.................................................     5
Chief Alonzo Thompson, Chief of Police, Spartanburg Police 
  Department
  Oral Statement.................................................     7
Mr. Chuck Canterbury, National President, Fraternal Order of 
  Police
  Oral Statement.................................................     9
Chief Art Acevedo, Chief of Police, City of Houston
  Oral Statement.................................................    10

 
         CHALLENGES FACING LAW ENFORCEMENT IN THE 21ST CENTURY

                              ----------                              



                        WEDNESDAY, MAY 17, 2017

                        House of Representatives

                   Subcommittee on Crime, Terrorism, 
                 Homeland Security, and Investigations

                       Committee on the Judiciary

                            Washington, DC.

    The subcommittee met, pursuant to call, at 10:15 a.m., in 
Room 2141, Rayburn House Office Building, Hon. Trey Gowdy 
(chairman of the subcommittee) presiding.
    Present: Representatives Gowdy, Gohmert, Chabot, Poe, 
Ratcliffe, Johnson of Louisiana, Jackson Lee, Conyers, Deutch, 
Bass, Richmond, and Jeffries.
    Staff Present: Margaret Barr, Counsel; Scott Johnson, 
Clerk; and Keenan Keller, Minority Counsel.
    Mr. Gowdy. The Subcommittee on Crime, Terrorism, Homeland 
Security, and Investigations will come to order. Without 
objection, the chair is authorized to declare recesses of the 
subcommittee at any time. We welcome everyone to today's 
hearing on the challenges facing law enforcement in the 21st 
century, and I would recognize myself for an opening statement, 
just a matter of quick personal indulgence.
    I would ask everyone to please remember our friend and 
colleague Thom Tillis from North Carolina. I want to thank 
everyone for being here today, and I want to thank Chairman 
Goodlatte for this hearing. This week, we celebrate National 
Police Week, and that is important to all the members of this 
subcommittee and that we have a hearing to honor our law 
enforcement officers.
    I want to extend a special thank you to our witnesses for 
being here. We have with us today Chuck Canterbury, national 
president of the Fraternal Order of Police; my own personal 
chief and director of public safety, Alonzo Thompson, from the 
great city of Spartanburg, South Carolina; Sheriff Jim 
McDonnell from Los Angeles County Sheriff's Department; and 
Chief Art Acevedo.
    Is that close? Forgive me, I am from South Carolina. I may 
get it wrong before I get it right again. From the great city 
of Houston, Texas.
    Each of you here today and all of our law enforcement 
officers across the Nation dedicate your lives and their lives 
to the precept which undergirds our country, and that is 
respect for, and adherence to, the rule of law. And I know 
every member of not only the subcommittee, but every member of 
Congress would have their own personal story about how officers 
have impacted their lives and would have their own personal 
testimony to the respect that they have for the women and men 
of law enforcement.
    I know, as I was preparing for this hearing, my mind went 
to an officer in Greenville, South Carolina by the name of 
Allen Jacobs. Allen, about this time last year, maybe a little 
bit more than a year ago, learned that he was going to be a 
father again, but this time, it was going to be different. He 
had two boys, and this time, he was going to be a father of a 
little girl, and life had prepared Allen very well to be a 
father. He was an outstanding student. He was a great athlete 
in Greenville, South Carolina.
    He put that athleticism and intelligence to work for our 
country in the United States Army. He was deployed to Iraq for 
15 months, and even volunteered to live in the neighborhoods of 
Baghdad because he understood that all people want to live in a 
peaceful, secure environment. And after Iraq, Allen was 
deployed to Haiti because he wanted to help the Haitian people 
in the aftermath of their tragic earthquake, but the tug of 
fatherhood is strong.
    And it is so strong that Allen decided to return to the 
upstate of South Carolina, but his desire to serve and protect 
remained. So, he left the uniform of the United States Army, 
and he put on the uniform of the Greenville City Police 
Department, and he pursued that calling with the same vigor and 
the same strength and the same professionalism that epitomized 
every other facet of his life.
    Whether it was service on the SWAT team, with the Cops on 
the Court, as a patrol officer for schools, or for a gang 
resistance team, Allen would stop his patrol car from time to 
time. He carried a basketball in the trunk just to get out and 
shoot basketball with the kids that could use a father figure 
like the one that he was providing to his own boys, you know, 
would provide to his daughter.
    I learned all of this about Allen in a telephone call that 
I had with his mother 2 days before his funeral. This man that 
survived Iraq and Haiti and boot camp and police officer 
training could not and did not survive an encounter with a 
teenage gang member who had just been released from jail. Never 
even had a chance to un-holster his service weapon, serve, 
defend, protect. He was ambushed.
    His funeral gave all of us in South Carolina an opportunity 
to reflect, not only on his life, but, Chief Thompson, the life 
of Jason Harris we just lost in your own department, responding 
to a call for backup from one of his fellow officers, a Russ 
Sorrow, or Kevin Carper, or Marcus Whitfield, or Eric 
Nicholson, or any of the officers; the upstate of South 
Carolina who gave the most precious thing they had, so they 
could protect the most precious thing we have, which is life.
    Law enforcement officers are willing to do what most of us 
are not willing to do, and they are willing to interact with 
people that most of us are not willing to interact with, and 
they are willing to miss things in life that most of us are not 
willing to miss. So, today, we are not only here to honor you, 
but we are here to listen, and we are here, in part, to 
memorialize those officers who lost their lives in the line of 
duty, but also to respect and pay honor to those that are still 
with us.
    So, I want to thank you for being here, and I am most 
interested in how we can help you do your jobs. There are 
challenges in our criminal justice system; I want a system that 
is not only respected, but worthy of respect, and there is not 
a system we have in our country that cannot be improved, and I 
am more than willing to hear ideas on how to improve it. But 
there is something different about law enforcement officers. 
And if we lose sight of that, as a society, that not only do 
they wear a uniform and a badge, but they serve symbolically as 
a line between law and order and those folks that are not of 
good conscience. If we ever lose sight of that, we are in 
trouble as a Republic.
    So, thank all witnesses. I will look forward to hearing 
from you, and with that, I would recognize the gentlelady from 
Texas.
    Ms. Jackson Lee. Mr. Chairman, thank you for your 
courtesies, and to the witnesses, thank you for your courtesy, 
as well. I was in a leadership meeting, and I thank you for 
recognizing, or at least accepting, my apologies for my delay. 
This is a very important hearing, and as the chairman has 
indicated, it is important that we try to help each other, law 
enforcement, and community.
    And I want to acknowledge Sheriff Jim McDonnell, Chief 
Alonzo Thompson, Mr. Chuck Canterbury, and Chief Art Acevedo 
for your presence here today and to say to you that we 
acknowledge, in this week, those who live, and those who have 
fallen. And we need to ensure that those who live recognize 
that we never want to see any more tragedies and families not 
seeing their loved one come home.
    In particular, I want to acknowledge Assistant Deputy Chief 
Clinton Greenwood of Harris County Constable's Office who was 
literally executed and died on 4/3/17. Officer Richard K. 
Martin of Houston Police Department died on 5/18/15; deputy 
sheriff, Harris County Sheriff Darren Goforth, 8/28/15. 
Detective Jerry Ronald Walker of the Little Elm Police 
Department died in January 2017 and then five officers.
    These are among others in Dallas who died July 2016: Brent 
Thompson, Sergeant Michael Smith, Senior Corporal Lorne Ahrens, 
Officer Patrick Zamarripa, and Officer Michael Krol. I went to 
that memorial and stood with those family members, and we will 
never forget.
    It is important in today's hearing to explore the 
challenges and seek strategies from organizing or reforming our 
law enforcement practices and policies in order to increase 
police safety nationwide and prevent the use of lethal force 
against unarmed citizens and selfless law enforcement officers. 
We want to make sure that we look at both sides of the issue, 
and, particularly, we want to hear from you about building 
trust and respect.
    I would want to understand what has been used by many, 
police militarization, or how we can balance the protection 
that the community needs with the various assets that you 
utilize. The need for responsible and comprehensive data, I 
believe that data is the science of police work, and then, of 
course, to be able to deal with the question of lethal force 
and protecting your lives and those of the community. As Judge 
Learned Hand said, ``If we are to keep our Democracy, there 
must be one commandment, `thou shalt not ration justice.' '' 
And so, today, I look forward to hearing from you, as well.
    And in keeping with this idea of justice, I just want to 
make a point, Mr. Chairman, that I have made before, and that 
is that this full committee, and we are the Subcommittee on 
Crime, as the Judiciary Committee in the Senate, subcommittee 
led by our esteemed Senator, Senator Lindsey Graham, we must 
have a full investigation and demand an investigation of the 
President, the Attorney General, and top White House aides. 
Democrats on the Oversight and the Judiciary Committee are 
asking for all memorandum that deals with the ending of the 
tenure of Director Comey, and, as well, the allegation that the 
President asked Director Comey to end the Flynn investigation, 
and, certainly, the release of classified information, 
recognizing that the President can release classified 
information, but what jeopardy have they put assets and 
intelligent community members in and, of course, our allies.
    I read into the record: we are concerned that the continued 
failure of House Republicans to take action in the face of this 
onslaught of allegations will cause significant damage to the 
faith that the American people have and the credibility and 
integrity of our committees and the House of Representatives. 
We have a solemn obligation under the Constitution to act as a 
check on the executive branch and to hold the President Trump 
accountable; again, not as Democrats and Republicans, but as 
Americans. It is time that we work together to be able to find 
the truth and, obviously, the truth will be our guide.
    I thank all of your for your service and your commitment to 
law and order and to the Constitution and for the service that 
we will never be able to thank you for as you protect the 
American people. I thank you so very much. I yield back.
    Mr. Gowdy. The gentlelady yields back. We have a very 
distinguished panel today. I will begin by swearing in our 
witnesses.
    If you would please rise and raise your right hands.
    Do you swear the testimony you are about to give should be 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    May the record reflect the witnesses answered in the 
affirmative. You can sit down.
    I will introduce you en banc, and then recognize you 
individually for your opening statement. I will tell you on the 
front end that all of the members have access to your opening 
statements. All of the members have access to your opening 
statements, so if I could get you to summarize it, hit the 
salient points within the 5-minute time period, that would 
allow more time for questions.
    Our first witness is Sheriff Jim McDonnell. Sheriff 
McDonnell is the sheriff of Los Angeles County, California. 
Welcome, Sheriff.
    Our second witness is Chief Alonzo Thompson; he is not just 
the chief, to me; he is the director of public safety in the 
district that I represent in Spartanburg, South Carolina. He is 
incredibly well-respected and well-regarded in my hometown.
    Our third witness is Mr. Chuck Canterbury, who is the 
national president of Fraternal Order of Police.
    And I will allow Ms. Jackson Lee to introduce our fourth 
witness.
    Ms. Jackson Lee. Well, our fourth witness is no stranger to 
law enforcement; we are delighted with his service in the city 
of Houston. He is Chief Art Acevedo, who is an active member 
nationally in law enforcement issues and has served from 
California to Texas, most recently in the city of Austin, and 
now serves as the chief of police in Houston, Texas.
    And I would only offer to say that we have a very 
collaborative effort on law enforcement, and I am very pleased 
to say that the chief works with all of our law enforcement 
agencies from Federal to local to ensure the appropriate, safe 
travels of Houstonians and those who come to visit our great 
city. I am delighted to welcome Chief Art Acevedo, and I am 
also delighted to welcome family members. If any family members 
are here; I see a lot of smiling in the second row. I want to 
acknowledge them, as well, because they are so very important 
to our law enforcement officers.
    I yield back, Mr. Chairman, and I acknowledge the ranking 
member who has come, Mr. Conyers. Thank you.
    Mr. Gowdy. Sheriff McDonnell, you will be recognized for 
your opening statement.

   STATEMENTS OF JIM MCDONNELL, SHERIFF, LOS ANGELES COUNTY 
    SHERIFF'S DEPARTMENT; ALONZO THOMPSON, CHIEF OF POLICE, 
   SPARTANBURG POLICE DEPARTMENT; CHUCK CANTERBURY, NATIONAL 
 PRESIDENT, FRATERNAL ORDER OF POLICE; AND CHIEF ART ACEVEDO, 
                CHIEF OF POLICE, CITY OF HOUSTON

               STATEMENT OF SHERIFF JIM MCDONNELL

    Sheriff McDonnell. All right, sorry about that. Chairman 
Gowdy, Ranking Member Jackson Lee, and distinguished members of 
the subcommittee, thank you for inviting me to testify this 
morning on behalf of the Major County Sheriffs of America and 
the National Sheriffs Association.
    As sheriff for the largest county in the United States and 
as a peace officer for more than 35 years, it is an honor to 
represent the sheriffs who are sworn to protect more than 100 
million people across our great Nation. Policing in America has 
never been more complex, because we are the first responders to 
some of America's greatest social challenges, whether it is the 
growing opioid epidemic, the emerging threat of cyberterrorism, 
homegrown extremism, and the growing prevalence of mental 
illness across our Nation. These are the 21st century 
challenges we should and must meet together. I have submitted 
written testimony that expands on what I can share here due to 
time, but it is available on the website. I will, however, be 
able to touch briefly on a number of critical topics.
    Last Friday's cyber attack that attempted to strike 150 
countries should make it crystal clear just how vulnerable we 
are and the potential scale that such an attack can have. These 
are complex threats that often lurk just beneath the surface of 
today's news headlines. Often, they become known only after the 
imminent threat of a pending attack is made or, worse, after 
the assault itself. These are threats that challenge our 
government and bureaucratic institutions to be adaptive in our 
solutions and in our collective response.
    There is not a sheriff's department in this Nation that is 
immune to the impact that mental illness and drug addiction are 
having on public safety in our jail systems. The 
deinstitutionalization of the mentally ill that occurred in the 
1960s and 1970s have turned our jails and prisons into de facto 
mental health hospitals. My jail system in Los Angeles County 
is the Nation's largest mental health institution; 70 percent 
of the inmates processed into our jails report a medical or 
mental illness. Nearly one-third of my jail population suffers 
from some sort of serious mental health issue.
    On any given day, upwards of 5,000 inmates need treatment 
for their illness. That population is forecasted to double over 
the next 10 years. In L.A. County, we will need to invest more 
than $2.2 billion in a new consolidated correctional treatment 
facility that can provide the mental health and medical 
services for this population which has nowhere else to go. Los 
Angeles County Jail, along with Rikers Island Complex in New 
York City and the Cook County Jail in Chicago, are the top 
three largest mental healthcare providers in the Nation.
    This is a failure of our criminal justice system 
nationwide. Are there times when jail is the best or most 
appropriate option? Yes, but it is our experience that jail is 
frequently not the best solution. As a Nation, we have a 
critical need and a moral obligation to build capacity for 
treatment options in our communities. We have the ability to 
support strategic partnerships with our mental health and 
social service agencies to provide the kind of wrap-around 
treatment services that can stabilize these individuals and 
keep them out of our jail system. We have a professional 
obligation to provide training for our officers of whom too 
much is expected.
    Too often, our deputies arrive at a call for service always 
facing the unknown and frequently facing a situation where they 
are asked to take on the role of a mental health professional. 
In Los Angeles County alone, in areas policed by the sheriff's 
department, 911 calls involving people with mental illness have 
grown 55 percent since just 2010. We need to fund and provide 
crisis intervention training to all first responders, both law 
enforcement and fire personnel. Let us work together toward a 
nationwide expansion of highly successful program of teaming up 
mental health professionals with law enforcement officers who 
work as an intercept first responder team.
    In the Los Angeles County, for instance, we have had these 
teams since the 1990s; some other major cities and counties 
throughout the Nation have some variation of this program which 
are also highly successful, but seriously overworked and 
understaffed. Most cities and counties that operate such a 
program cannot provide the service 24/7 and in many places 
because of the geography it becomes very difficult to respond 
in a timely manner. However, in our experience, when a team 
such as this is called to a scene, we have the ability to 
divert the individual away from the criminal justice system and 
into proper mental health treatment facilities in 99 percent of 
the encounters.
    The third step is diversion. I would like to thank Congress 
for passing the National Stepping Up Initiative which provides 
counties and cities with funding to divert those dealing with 
mental health illness away from our county jails. We should 
also look at dedicated mental health courts that could 
recommend better options for those suffering from mental 
illness other than jail or prison. And, lastly, we need to have 
an adult conversation about what to do with those suffering 
from mental illness that do end up in the criminal justice 
system and in our jail and our prisons.
    We as a Nation, can agree that not everyone suffering from 
mental illness or other disabilities can be diverted. Some 
individuals who are pretrial and classified as a harm to 
themselves and to others, will end up in our jails. As such, we 
need to provide the most humane, modern, and safest setting for 
them so they can receive the treatment and get the help they 
need. The MCSA and NSA seek to be a positive source of ideas. 
We look forward to continuing a dialogue and working with you. 
We cannot be successful unless we, as a Nation, are committed 
to finding solutions. I thank the chairman for his commitment 
to collaboration and willingness to engage in local law 
enforcement on these issues that are so critical to all of us. 
Thank you very much.
    Mr. Gowdy. Thank you, Sheriff.
    Chief Thompson.

               STATEMENT OF CHIEF ALONZO THOMPSON

    Chief Thompson. Good morning. Mr. Chairman, the members of 
the House Committee on the Judiciary, Subcommittee on Crime, 
Terrorism, Homeland Security, and Investigations. I am truly 
honored by the invitation to address this distinguished body.
    The challenges facing the law enforcement in the 21st 
century are numerous and very dependent upon whether there is a 
local, State, or Federal entity. Domestic terrorism, gangs, 
illegal narcotics, gun violence, cybercrimes, social media, 
behavioral health, and highway safety issues pose significant 
challenges to law enforcement at all levels, and this is not an 
all-inclusive list by any means.
    In addition to those widely-recognized concerns, there 
exist three pressing matters that are demanding our immediate 
attention, especially at the local level: community police 
relations, recruitment and retention, and budgetary restraints. 
Our ability and capacity to respond appropriately and 
effectively to the aforementioned concerns is largely dependent 
on how well we manage these three foundational issues.
    Highly publicized police citizen contacts have gotten the 
attention of our Nation. Increasingly, citizens are interested 
in how police departments operate and the decisions made by law 
enforcement practitioners. Now, more than ever, questions about 
police accountability, police training, and organizational 
culture are commonplace. As a result of intense scrutiny, 
improving community relations is paramount. Even agencies such 
as my own that have traditionally valued and focused their 
efforts on community engagement must continually strive to 
strengthen those relationships and to build new ones. We will 
not be as responsive or successful without strong, 
collaborative partnerships.
    With baby boomers retiring and shrinking applicant pools, 
recruiting and retention is a struggle for law enforcement 
agencies today. The inherent dangers of the profession and its 
intense scrutiny and harsh criticism discourage some from 
entering and/or remaining in law enforcement, while others 
pursue more lucrative, less stressful, and safer career fields. 
And retention has been negatively impacted by tightening 
budgets; they have resulted in stagnant wages, increasing cost 
of employee benefits, and limited performance-based incentives 
and special skills pay.
    This funding issue segues into the third and final 
challenge I wish to share with you this morning: budgetary 
restraints. In a climate where many government bodies are 
plagued with lingering economic woes and are forced to make 
very difficult decisions about budgets, many police departments 
are underfunded. Consequently, it has become increasingly 
difficult to compete with corporate America for qualified 
applicants and to retain experienced personnel. We are also 
facing the growing necessity for advanced technology. For 
example, body-worn cameras, less than lethal weapons, 
integrated records management, and inter-operable communication 
systems, some of these amount to unfunded mandates.
    However, in the 21st century policing environment, these 
are not niceties; they are, indeed, necessities. For instance, 
many law enforcement agencies committed to equip officers with 
body-worn cameras which expanded the opportunities for officers 
to capture more of those critical police citizen encounters. 
Well, this technology comes with a cost. Additional funding 
from governmental sources will be needed, not only for 
equipment, but for training that enhances a diversity 
consciousness of law enforcement professionals such as implicit 
bias, de-escalation, use of force, and other subject matters 
deemed necessary. Although the specific needs may vary, the 
challenge or dilemma is the same.
    And, in conclusion, I reiterate these issues must be 
immediately addressed. Enhancing community relations is 
fundamental to local law enforcement gathering information and 
proactively combating crime and terrorism. This includes 
building community partnerships to solve an array of societal 
problems. Recruiting and retaining law enforcement 
professionals at a local level will ensure that we have a 
highly trained and experienced work force to provide police-
related services and conduct complex investigations whether 
they involve criminal activity, terrorism, or a nexus between 
the two.
    We need enhanced capabilities to handle current issues as 
efficiently as possible and to give us the time we need to look 
forward and toward the future to anticipate and prepare for new 
crime trends and emerging opportunities. Again, I appreciate 
the opportunity to share my views on the challenges facing law 
enforcement in the 21st century, and I thank you very much for 
your time.
    Mr. Gowdy. Thank you, Chief.
    Mr. Canterbury.

                 STATEMENT OF CHUCK CANTERBURY

    Mr. Canterbury. Good morning, Mr. Chairman, Ranking Member 
Jackson Lee, distinguished members of the Subcommittee on 
Crime, Terrorism, and Homeland Security and Investigations. I 
am here this morning representing 330,000 members of our law 
enforcement community and I would like to take this opportunity 
to thank you for having this hearing at this very opportune 
time with National Police Week just concluding.
    Today, Mr. Chairman, my members are concerned about their 
safety. According to a recent FBI report analyzing 50 cases in 
which officers were shot and killed, 28 percent of the 
assailants were motivated by a hatred for police or for social-
political reasons. Others were simply out to get justice and 
told their friends and families or members or used social media 
to communicate their intent to hurt law enforcement officers. 
The FOP has long argued that a hateful vitriol-amplified social 
media is leading to violence directed at law enforcement 
officers and I think this report by the FBI bears that out.
    Our views of law enforcement as a society have changed in 
the past few years, and the respect we once had in our 
communities and amongst our elected leadership has greatly been 
diminished, but a recent Gallup poll showed that police 
officers were 77 percent approval rating in this county. Mr. 
Chairman, every American that looks at a law enforcement 
officer, should look at him as somebody that is there to defend 
the life, liberty, and pursuit of happiness, but, 
unfortunately, with social media and the media, excessive 
force, terms like ``acted stupidly,'' and ``police brutality'' 
have become a common term.
    Another persistent false narrative recycled in the news is 
the militarization of law enforcement. Mr. Chairman, I submit 
that it is more modernizing. The previous administration 
ignored the input of law enforcement community and imposed 
broad restrictions on Federal equipment program. Throughout the 
program created by President Clinton, many basic equipment 
items were provided to departments that could not afford those. 
It was a huge and harmful overreaction to negative media 
coverage in the fake militarization narrative.
    The 1033 Program administered by the Department of Defense 
was singled out for specific criticism, but the executive order 
imposed new prohibitions and restrictions on equipment 
throughout the Federal Government, including the DOJ and 
Homeland Security. I do not need to point out that the post-
nightclub shooting, the San Bernardino shooting, many of that 
equipment was utilized to protect police officers' lives and 
citizens' lives. These are not militarized vehicles, as a 
matter of fact, they are demilitarized.
    We are working with the new administration to restore the 
integrity of these programs and we urge this subcommittee to 
consider H.R. 426, the Protecting Lives Using Surplus Equipment 
Act. The need to restore these programs and provide assistance 
to State and local law enforcement is not just limited to 
equipment. The administration of the Office of Community 
Oriented Policing Services needs to be funded fully as it has 
been in the past years. We have less police on the streets 
today and recruitment and retention is one of the biggest 
challenges facing law enforcement in the 21st century. There 
are less men and women policing and violent crime is on the 
rise in many of our cities.
    For this reason, I urge the subcommittee to support fully 
funding the COPS hiring program and the Edward Byrne Memorial 
and Justice Grant programs. These programs have been a godsend 
to local law enforcement and in these challenging economic 
times, State and local law enforcement officers cannot perform 
their duty without these extra funds.
    Mr. Chairman, I spoke about the challenges facing our 
profession as a whole. Law enforcement officers are expected to 
be mentally healthy and resilient, but the job and the 
situations that we must respond to takes a toll on the mental 
health of an officer. Officers responded to a shooting, or who 
have lived through things like the attacks in Dallas and Baton 
Rouge, or who responded to event like Sandy Hook or the post-
nightclub, may need to be dealing with these experiences.
    That is why we were very pleased that Senator Donnelly's S. 
867 bill passed in the Senate yesterday. The FOP helped craft 
that legislation, as well as H.R. 2228 that has been introduced 
into the House. This bill will allow the Attorney General to 
work with the Department of Defense and Veteran Affairs to 
collect information about the mental health programs provided 
to officers and will expand officer wellness.
    During this week, National Police Week, where we honored 
234 of American's heroes who passed away last year, this is a 
very appropriate time for Congress to take up these issues. Mr. 
Chairman, I thank you for the opportunity to be here today. I 
would like to point out that, as of last night, we lost our 
18th officer by gunfire, which put us at 6 percent higher than 
the rate last year. To date, we have had 95 officers shot in 
the line of duty, 18 of them have perished.
    Mr. Gowdy. Thank you, Mr. Canterbury.
    Chief Acevedo.

                 STATEMENT OF CHIEF ART ACEVEDO

    Chief Acevedo. I want to thank you for inviting me to 
testify here today. I appear before you as the chief of Police 
of the city of Houston; the fourth largest city in the Nation 
and our Nation's fastest growing. It is my privilege to speak 
to you on behalf of the Major City Chiefs Association where I 
am the first vice president. This organization represents the 
69th largest law enforcement agencies in the United States.
    As a police chief of two major cities over the last past 10 
years, with a total of 31 years of law enforcement experience, 
I can say with unqualified certainty that building strong bonds 
with communities is what makes law enforcement agencies 
successful and communities safe. A respectful relationship with 
the people we serve enables police to overcome what I consider 
our biggest challenge today, regaining the community's trust.
    In order to build strong relationships to the community, 
police departments must engage all members with a community. 
Community engagement done correctly builds trust so that when 
something goes wrong, which is inevitable in a mission as 
complicated as ours, the committee knows that the department 
and its leadership will address the problem honestly and openly 
and take positive action to correct any deficiencies.
    One of the challenges that law enforcement is facing is 
building trust among the community is immigration enforcement. 
As you know, recently, SP4 passed in the State of Texas which 
really opens local law enforcement to the perception of being 
immigration agents. Immigration enforcement officers were seen 
as that, it really hurts the bonds of trust that we have built 
over the last many, many years.
    Immigration enforcement is a Federal function that cannot 
be delegated, should not be delegated to city police 
departments. Immigrant communities, whether document or not, 
begin to fear local police officers when they become too 
heavily involved in immigration enforcement. Then, they stop 
reporting crimes and coming forward as witnesses or victims 
which increases the victimization of immigrant communities and 
allows criminal conduct to go unchecked making the entire 
community less safe.
    Community engagement must include everyone if a police 
department is going to be successful and we urge the Congress, 
as we have been urging for many years now, to enact 
comprehensive immigration reform once and for all instead of 
this hodge-podge approach is starting to happen, starting in 
Arizona, and now moving on to Texas.
    Recruitment and retention. Chief Brown nailed it after the 
Dallas tragedy when he said, called on young men and women 
instead of protesting, to, ``put down the signs and come in and 
sign up.'' You know, make a difference, join the police 
department, join us, and see that we can and will continue to 
make a difference.
    Thanks to his call, 344 percent increase occurred in their 
recruitment there in the city of Dallas. Large cities like 
Houston are cast draft and in constant battle for staffing and 
resources. We are hundreds of officers short as Mayor Turner 
has so aptly stated time and again as a police department and 
adding more unfunded mandates such as immigration certainly 
does not help, and we need to maintain funding.
    One of the things that we hope, as my colleagues have said, 
is that the COPS office continued to have full funding, or JAG 
Grants, any grant, HIDA Grants, federally-funded grants are 
really key, and, also, protect asset forfeiture. Asset 
forfeiture when they are taken from criminals, from criminal 
syndicates, criminal organization, drug traffic organizations, 
and placed in the hands of law enforcement, it is money that is 
put back into crime fighting and keeping our communities safe. 
Having said that, we should not allow departments to take money 
from people unless there is really a criminal predicate and we 
are actually taking them from crooks and not from hard-working 
Americans.
    Consent decrees, consent decrees while they have a good 
value, we hope that as we move forward that that will be the 
hammer that is left as a last resort and that we move towards a 
variety memorandums of agreements. While most officers serve 
their community with sensitivity and respect there are 
unavoidable times when police work can be violent and ugly.
    There are also times when, obviously, we do not do the 
right thing. We have to maintain the trust of the folks that we 
serve, and we believe that collaborative approaches with the 
Department of Justice with memorandum of agreements, it takes 
off the monitor, quite frankly, has become a cottage industry. 
Where millions of dollars that should be spent on training, on 
equipment, and an accountability at the local level and placed 
at the hands of the mayors, the councils, and, ultimately, the 
community at the local level and the Department of Justice, go 
wasted in giving to Federal monitors to, quite frankly, again, 
it has become a cottage industry. And I have more information 
that in here.
    We need strong oversight. We support strong oversight. But 
we want to be smart, and again, not waste those precious 
dollars. A heartfelt partners of the community is really the 
most important thing that we can do. They are our greatest 
force multipliers, and I would, again, urge Members of Congress 
to work on issues to help build communities of trust, bridges 
of trust, and not tear down those bridges. Thank you.
    Mr. Gowdy. Thank you, Chief. The chair will now recognize 
the gentleman from Ohio, Mr. Chabot.
    Mr. Chabot. Thank you very much, Mr. Chairman. And I 
apologize in advance if I leave after my questions. I am the 
chairman of the Small Business Committee, and we have a meeting 
at 11:00 that I have to chair, but I will be here long enough 
to ask questions, and thank you for your testimony. If I could 
go to Sheriff McDonnell and Chief Thompson first, the same 
question I will address to both of you. I think you had both 
mentioned the body-worn cameras, and could you touch upon both 
the positives and the concerns that a local police department 
has when you are considering whether to go towards body 
cameras? And maybe you first, Chief?
    Sheriff McDonnell. Yes, sir. Thank you for the opportunity. 
A number of issues I think need to be addressed when a 
department is looking at deploying body-worn cameras, and those 
include not only the hardware, which is actually the cheapest 
part of the whole equation, but then everything that goes 
behind that. And that would include the ability to be able to 
retain, on either a cloud or a server, the video. And there is 
a tremendous amount of video when this camera is rolling all 
the time.
    And then, behind that, again, is the policies in place and 
the agreements with the D.A. and others as to when you are 
going to release the footage and when you are going to hold it 
as part of an investigation. That needs to be covered up front 
with the public's expectations being realistic.
    And then, on the other side, is the personnel cost. The 
amount of discovery that is created as a result of having the 
cameras and the footage is an inordinate burden on an 
organization if they do not have already in place the personnel 
who are trained and certified to be able to go in and identify 
the appropriate amount of footage to disclose, and to be able, 
then, in the cases where they need to be able to pixelate 
uninvolved third parties for their own protection, to be able 
to do that as well.
    And you can imagine a scene where there is a backup or a 
help call goes out and 20 deputies, 20 officers respond, each 
with body cameras rolling. They have to go through whatever the 
workload is times 20 to be able to deal with that. And that is 
a burden that I do not think has been addressed enough, and it 
is a tremendous expense on top of the hardware and the things 
that people are aware of on the surface.
    Mr. Chabot. Thank you very much. Chief Thompson?
    Chief Thompson. I think you gave a very detailed response, 
and I concur with everything you mentioned.
    That additional cost, again that applies to one of those 
unfunded mandates I referred to in my remarks earlier, the 
storage fees, the upgrades that are required pose some hardship 
on some of the local municipalities. But in addition to that, I 
am a strong proponent of the body-worn cameras, but I want to 
make sure that we realize though it is not a panacea. It does 
not solve all of the problems. But, it is definitely a tool 
that is needed, but because of the cost involved it has been 
cost-prohibitive for some of my fellow chiefs and law 
enforcement agencies to require them.
    Mr. Chabot. Thank you very much. Mr. Canterbury, I will go 
to you next, if I can. I happen to be part of an institution, 
the Congress, and we get excited when we get higher than the 
teens in popularity, which does not occur very often. Most of 
the polling we are down there with head lice and Ebola virus 
and stuff if you look at popularity. But you had mentioned the 
police in our country is about 77 percent public support, which 
I think is tremendous.
    On the other hand, you also indicated that I think it was 
28 percent of the murders of police officers around the country 
are motivated by people who have a hatred of police officers or 
a political point of view which allows them to justify 
shooting, you know, a police officer, ambushing he or she. I 
mean, it is incredible, but it certainly happens. Are there any 
steps that you would suggest on how we as a community, a 
society, can reduce the amount of public hostility that some 
people in our country have towards law enforcement? Or is it 
just an element that you are always going to have to live with 
and you have to protect yourself from them? What would you 
suggest?
    Mr. Canterbury. I am a firm believer that there are some 
bad people. There are just some bad people. But, unfortunately, 
in the last 25 and 30 years, law enforcement has become the 
only form of government that many local governments have as a 
resource to go into economically depressed areas. We believe 
that if there is not a holistic approach to building trust in 
communities with every aspect of government, law enforcement 
cannot be sent into a neighborhood to clean the neighborhood 
up.
    Because if you do not attack the underlying root problem of 
poverty, you are never going to break that cycle. You know, 
people forget that Marilyn Mosby asked for high-intensity 
patrols in the area where Freddie Gray died. And it was the 
only arm of government that the Baltimore City officials had to 
work in that neighborhood. If there is not a total holistic 
approach with all aspects: community activists, churches, 
schools; then we are never going to address the problem, 
especially in economically depressed areas. Job training, 
unemployment, single parents, all of those issues have to be 
attacked before we are going to see improvement.
    Mr. Chabot. Thank you very much. My time has expired, Mr. 
Chairman.
    Mr. Gowdy. The gentleman yields back. The chair will now 
recognize the gentleman from Michigan, the ranking member of 
the full committee, Mr. Conyers.
    Mr. Conyers. Thank you, Mr. Chairman. I have never been on 
a panel where we have had this much police and law enforcement 
leadership at one time, and so I am going to go to the heart of 
my relations with police that have been so important to me all 
my life. And that is the importance of us improving the 
relationship between the African-American and other minority 
communities and yourselves and your offices.
    This has been an ongoing problem, and I support you on the 
funding. I support your concepts. But, you know, there is a 
certain element in law enforcement that is racial. That is 
anti-diversity. And let's just speak as honestly as you can for 
a few minutes about that part of your relationship because you 
cannot build trust if there is glaring instances of police 
disrespect for the minorities in communities, and there has 
been a long history of that.
    We are still coming out of racism in our society, and in 
law enforcement, it becomes glaring. And I would like to ask 
the national president of the Fraternal Order of Police to lead 
off this discussion, and I hope all of you will join in with 
your honest opinions.
    Mr. Canterbury. Mr. Conyers, I do not know when and how 
that personal bias will be gone in this country, but I do know 
that in my 30-plus year career in law enforcement, I have never 
been taught that racial profiling was a legitimate police 
practice. I have never been taught that anybody of color should 
be arrested at a higher rate. I have never been taught that 
everybody should not be treated fair and equally in this 
country.
    But we do recognize that there is implicit bias, and there 
are individual officers that may have those bias. It is our job 
to make sure that those officers are rooted out and put out of 
this career field. But again, it cannot be the first call of a 
politician when a white officer arrests somebody of color. It 
can never just be the first thing that we hear from social 
media. Freddie Gray for instance, there were three African-
American officers involved and three white officers involved, 
and to say that the three African-American officers committed 
some sort of a heinous act because of color is just ludicrous, 
you know. But we believe working together with our communities 
we can help build that trust.
    But we cannot be the answer to that, Mr. Conyers. We cannot 
go into the inner city as law enforcement and fix the problems 
unless we attack the underlying problems of poverty.
    Mr. Conyers. Well, I agree with you that there are a lot of 
economic and cultural considerations involved in this part of 
our discussion. But I want to see, and I am watching carefully 
the police systems across this country to make sure that 
everybody is doing as much as we can to root out some of these 
bad apples. There are only a few, but it only takes one to 
really create a very negative view. Who else here would like to 
make a comment? Yes, sir.
    Sheriff McDonnell. Thank you sir. Thank you for the 
opportunity. When you look at where we are in America today, I 
believe we have come a long way. Always, there is room for 
improvement. The police are called to situations that are out 
of control.
    We get there when situations are fueled often by emotion, 
alcohol, drugs, or mental illness. So, it is always a dynamic 
situation when you get into it. Race on top of it is kind of 
the third rail of American policing, if you will. And look at 
what has happened recently and over our history in this 
country.
    I think the answers are to continue to talk about it. 
People are afraid to talk about race. Unless we engage, unless 
we talk openly and honestly about it, we are not going to come 
to a place where we are all going to be proud of what we are 
doing. There are 18,000 police departments in our Nation. Are 
they all the same? They are not. We are working to be able to 
raise the bar for every department in America, so that we are 
comfortable that anybody goes out there in the field represents 
the profession and does so in a professional way.
    I believe today we are dealing with issues of misconduct to 
try and be able to get at the root of that, and we are 
separating people from employment who are out there doing it 
the wrong way. Because, when you look at the amount of police 
in this country that is about one third of one percent of our 
population are charged with the public safety for the 
remainder, that is not very much that we can be able to do that 
on our own. We have to be able to work with the communities 
that we are privileged to serve in a way that is positive, in a 
way that we are all on the same team.
    But again, it goes back to I think not only the race issue, 
but police go where crime is. And that is driven by poverty, by 
lack of opportunity, by lack of education, and all of the other 
societal ills that I think police being inserted into a 
situation that is volatile, that is highly charged, police 
often get the blame for whatever the underlying reason was. But 
beyond the control of what we can do to be able to affect that 
at its root.
    So, as we move forward, I think a big step is focusing on 
youth programs. That is not a core police mission, but it is 
one we have taken on because we see the need to do that. That 
if we can bridge that gap at an early age and be able to help 
kids after school have a safe environment. We do that in L.A. 
with our Sheriff's Youth Foundation, to be able to give kids 
that safe environment, ensure that they do their homework, and 
then they are allowed to do after-school activities. Sports 
programs, work on the computers and those kind of things.
    That is really where we have to begin to look for the 
future is to be able to work with kids at their earliest 
opportunities.
    Mr. Conyers. If we do not do anything more today with you 
four, to me the most important thing is that you take back a 
message that there are people like myself who have been working 
in different capacities long before I came to Congress in race 
relations. And these racial tensions are factors that are not 
solely about police and the Black community. They come from 
these related concerns of poverty, unemployment, and other 
educational disadvantages.
    But I need to make sure that you take this back with you, 
because you will affect some of those people who may be 
thinking they can get out of line. The major concern is 
improving race relations with all the other folks that may be 
considered minorities in our community. Who wants the last 
word?
    Mr. Gowdy. Because of my respect for the gentlemen, we are 
3 minutes over, but if you want to take a very quick stab at 
answering that question, it is important enough for us to go 4 
minutes over.
    Mr. Conyers. You are very kind.
    Chief Thompson. Well, thank you sir for the question. It is 
so important that we engage our community during non-
confrontational or non-contentious times to break down barriers 
and form relationships. Relationships translate ultimately into 
collaborative partnerships, and it starts as the gentleman on 
my right mentioned. Hiring the right people. Having a work 
force that is representative of the community that it serves is 
really important.
    I am real proud of the fact that in my area the service 
population is 70 percent white, 30 percent non-white, and our 
department reflects that same level of diversity. And to get 
that level of diversity it must be intentional, and there are 
qualified applicants out here of all race, ethnicities, and 
gender. But you have to go where they are and attract them into 
your agency. And by being reflective and being responsive to 
the citizens in a respectful and equitable way, that draws 
people to you and also helps build that public trust and 
confidence that you are looking for. And rewarding the behavior 
that is desired is key.
    And also, as mentioned, addressing that strongly and 
directly for that that is inappropriate is extremely important 
as well. But, so much of what we can do prior to the good-God-
almighty situations were taking place, you lay the groundwork 
before that as I said, during those non-contentious times. And 
I stressed that enough.
    And I will sit in and just say this: if you go online and 
see Spartanburg in a new light, you will see one of our latest 
initiatives where we brought people together. It did not matter 
what side of the tracks you were on, your socioeconomic status, 
we were all at the one table, one voice working on a public's 
art project that calls us to talk and start building 
relationships. And bridging gaps. And it is evidence of what we 
can do when we come together with unity of purpose and that 
singleness of mind.
    Mr. Conyers. Thanks, Mr. Chairman.
    Mr. Gowdy. Thank you, Mr. Conyers. The chair will now 
recognize the gentleman from Louisiana, Mr. Johnson.
    Mr. Johnson of Louisiana. Thank you, Mr. Chairman, and 
thank all of you for your important testimony today and for 
your faithful service. I am the son of a first responder. My 
father was a firefighter, and in 1984 he was blown up in an 
explosion. He got burned 80 percent of his body, third degree 
burns, is permanently disabled. He was a training officer, and 
I grew up at the fire and police training academy, so I have 
tremendous respect for what you do and the dangers you face.
    Mr. Canterbury, I want to thank you for your testimony 
about the need to modernize our law enforcement. I really 
believe, and maybe you do as well, that people that use terms 
like ``militarize'' do not understand the real challenges that 
you face.
    And I think language is important, and I appreciate you 
making that distinction. As you noted, our great tragedy in 
Baton Rouge this past year got the attention of my State in 
Louisiana, and we have the distinction right now of being the 
most dangerous State in America for law enforcement. And I wish 
we could do something about that. We are going to try.
    The question is for you, Mr. Canterbury. The Department of 
Homeland Security renewed a bulletin late Monday that warned of 
the dangers posed by home-grown terrorists, and they called the 
threat environment in our country right now one of the most 
serious since the 9/11 attacks. I was just wondering, in your 
opinion do you agree we will continue to see an increase in 
smaller, more localized terrorist attacks?
    Mr. Canterbury. Absolutely. I think social media has 
allowed terrorist organizations over there to influence young 
Americans in the United States and have glamorized that type of 
terrorism. So, yes. I have served on the Homeland Security 
Advisory Council both for President Obama and for President 
Bush, and it has always been a major concern and will continue 
to be.
    But we, obviously, are going to see an uptick in lone-wolf 
style and American attackers that have never been to that part 
of the world, but have been energized by the social media and 
those markets.
    Mr. Johnson of Louisiana. Recognizing that to be the case, 
all of us feel the burden of it. We feel that we need to do 
everything we can to try to address that threat. And I guess a 
follow-up question is, to adequately prepare and respond to 
these local terrorist attacks that seem to be popping up, do 
you think there are improvements and reforms that could be made 
to better apply the lessons learned? And specifically in terms 
of maybe coordination among various first responders.
    Mr. Canterbury. Well, I think that the communications from 
the Federal level to State and local has greatly improved since 
9/11. But it can continue to get better, and I would like to 
point out we still do not have an interoperability radio system 
in this country. We are much closer than we were, but I 
testified in 2003 after 9/11 of the importance of that, and the 
contracts for building that system out have just been let in 
2017. So, the communications must continue. It needs to be both 
ways. JTTFs need to be fully funded. HIDAs need to be fully 
funded. And the fusion centers need to be fully funded.
    Mr. Johnson of Louisiana. I appreciate your work in that 
arena. Maybe this question could be for any of our 
distinguished panel members. The police chiefs and the sheriffs 
back in my home State of Louisiana are facing growing threats 
and challenges because their resources, as I know all of you 
have testified to and you have struggled with, the challenges 
are going up, the resources are going down, basically.
    Can any of you elaborate, just to that we have it on the 
record, about the 1033 Program and how that has proven to be a 
critical source for your department and your county in 
purchasing equipment?
    Chief Acevedo. Let me take a stab at that. The 1033 
Program, the program is not the problem. It is all about proper 
training, proper policy, and proper use. I remember when the 
MRAVs came out people started saying, ``We have got these 
things that were being used in Iraq.'' And although, I did not 
choose to get one in Austin because it was not good for our 
tight streets, I defended that because I said, ``There is 
flooding in a lot of rural counties.'' In Houston we have a 
huge problem with flooding.
    So, it is not the equipment. It is really the policy that 
is implemented as to its use, and the way it is used. So, we 
have helmets, we have binoculars, office equipment, 
helicopters, MRAVs. And again, there is no offensive equipment 
other than rifles, but other than that it is all defensive. And 
it is all about protecting the American people. So, we hope 
that, again, we are thoughtful. And I do not think the 1033 
Program has been destroyed by any means, but that we keep that 
program alive and well.
    Mr. Johnson of Louisiana. Anybody else?
    Sheriff McDonnell. Yeah. If I could, sir. The 1033 Program, 
I would ask that reconsideration be given to looking at the 
needs of local police. When you see any of these active shooter 
situations, terrorist situations on our home soil, who gets the 
call? People call 911, local police respond. If they are 
showing up in a black-and-white with their sidearm and that is 
all they have got, they are at a tremendous disadvantage. They 
are probably going to put themselves in a position where they 
are going to end up being hurt or killed and not being able to 
accomplish the mission of rescuing downed kids or people in a 
mall or a theater or whatever.
    But having the equipment that we have been able to get 
through the 1033 Program, we have been able to go into a hot 
zone, to be able to stop the shooting, to be able to extract 
people who were down at the scene and get them off to medical 
attention without the tools necessary for the exception. We do 
not use them every day, and as Chief Acevedo mentioned, it is 
about leadership.
    It is about accountability. It is about using the right 
tools at the right time, not using them for situations where we 
have seen, in our recent past, that people can cite and say 
they are not intended for that. They are not. But they are 
intended to be able to put our officers, our deputies in a 
position between danger and the public, and to be able to do 
hot zone extractions of downed citizens. To be able to get them 
out, and get them help, and stop the threat as quickly as we 
can.
    Mr. Johnson of Louisiana. Thank you for that. Mr. Chairman, 
I am out of time, but I just want to close by saying this. This 
is not just a feel-good exercise. We greatly value your input. 
And I know there is a commitment of the people on this 
subcommittee and our full committee to work towards these 
reforms to help you out. So, thank you for what you do.
    Mr. Gowdy. The gentleman yields back. The chair will now 
recognize the gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the gentleman very much. I was 
happy to yield to my ranking member Mr. Conyers, but I want to 
take note of the fact, Sheriff, that your member Congressman 
Bass is a very active and full member of the committee and was 
here at the beginning, and we thank her for her service. To 
acknowledge Congressman Deutch, his presence here today. And to 
acknowledge Congressman Richmond's presence here today on the 
subcommittee for our members, and we are delighted to have all 
of you here. And to take note of the fact that we are 
interested in working together.
    So, I want to start with Mr. Canterbury, and thank you for 
the representation of 300,000. To you and your collective 
membership, let me continue to offer my acknowledgement of 
their service, and as well, sympathy for their loss and their 
families. In my past life, I served as a municipal court judge, 
and interacted not only with citizens but with officers on a 
regular basis. And as I sometimes say, not necessarily clothed 
in their blue, but clothed in their undercover clothing seeking 
probable cause warrants. So, we know the variety of work that 
is done by our officers, and we thank you.
    But I want to follow the line of questioning of my ranking 
member, and to say that we have got to meet each other halfway. 
There is no doubt that the Walter Scott case and the Jordan 
Evans case, these are very conspicuous cases that loom large in 
the psyche of Americans no matter what racial background they 
are. I want to know the FLB will work with us. As you well 
know, we are working on a trust and integrity bill that I 
believe is a hand of friendship.
    It also includes a collection of data, and that is numbers. 
You have just cited the FBI report, but I view it as science 
that help drives us toward providing the funding that you are 
interested in. I was a great supporter of the Cops on the Beat 
program, I want to make sure that is going forward. Byrne 
Grants, like you said, helping as much as possible.
    I want to get to Sheriff Acevedo for him to further 
emphasize some of the tactics we have used in Houston, and I 
want to thank Mayor Turner for emphasizing, in terms of 
community outreach, who you have engaged in. And then, if you 
would also answer the question. Just this past Monday Secretary 
Kelly, and I know that you have gotten this notice in working 
without joint terrorism, indicated that we may be in one of the 
most serious terrorist threat atmospheres since 9/11. This 
falls to local police. What kind of resources and what you need 
dealing with that question.
    And I thank you, Mr. Canterbury. Sheriff, will you take 
hold of this question please so that I will not have to say it 
again? Really interested in your comments about mental health. 
To answer the question, are you saying that some of these 
people who come to you, they are not criminals? They need 
mental health help. Thank you, and Chief Thompson, if you want 
to jump in please do. Mr. Canterbury.
    Mr. Canterbury. I would like to lead off by saying that I 
think the difference in the Walter Scott case versus some of 
the other cases is that the city of Charleston handled the 
entire investigation and the pre-work that Chief Thompson was 
talking about in the city of Charleston. If you look after the 
Emmanuel Church shooting as well, I am a proud South 
Carolinian, we did not go to the streets. We did not ride in 
South Carolina. We walked arm in arm on King Street in 
Charleston and demanded an end to the violence.
    And I think it is the pre-work that happened there. But on 
a national level, we have always been committed to data 
gathering. What we also like to see, though, is a mandatory 
collection of assault on police officers, as well so that we 
can demonstrate the total number. It is voluntary reporting 
currently.
    So, yes, we would work with you in any way possible to 
increase the amount of data. Scientific data is a basis for 
asset allocation, policing strategies. But on the other side, 
we also want to collect the data on the number of police 
officers that are being assaulted.
    Ms. Jackson Lee. I am going to take you up on that offer. 
Thank you, Chief. Thank you.
    Chief Acevedo. Good morning, again. In the city of Houston, 
we are really focusing on building relationships, building 
trust. Mayor Turner sets the tone and we all follow, including 
yourself and the police department. And we do not paint people 
with broad brushes. Black Lives Matter, some folks will paint 
them with a very broad brush as a bunch of anarchists, when we 
know that the vast majority of the people in that movement are 
our neighbors, our friends, our coworkers, and people that just 
want to see good policing.
    And so, what we are doing in Houston is engaging one 
another, building those bridges. When SB4 is trying to 
marginalize immigrants and paint them as a bunch of thugs and 
rapists and drug dealers, we are painting them as what they 
truly are the very vast majority, and that is day laborers, and 
cooks, and nannies, and people that are building our homes and 
our bridges and our roadways. And so, I think that we need to 
put down our brushes and start talking to each other instead of 
yelling at each other. And actually instead of running away 
from activists I run towards them.
    And because of that, we have built I think trust. And we 
call each other on the carpet when we need to, and have those, 
I think like Sheriff McDonnell was saying, honest, open, blunt 
discussions. But respectful.
    Ms. Jackson Lee. Sheriff.
    Sheriff McDonnell. Thank you, ma'am. On the issue of mental 
health, I have on a daily basis 17,000 inmates in our custody 
in L.A. County jail system. Of that number, 4,000 to 5,000 are 
seriously mentally ill. If you were to look at the remainder of 
them and you look at issues such as PTSD, the number would 
probably be in the range of 90 percent. So, we have a 
population that is very, very challenged, that needs a 
different kind of care than traditionally we have been used to 
providing.
    Many of our folks are in custody because they are acting 
out on their mental illness. There is a cycle of dysfunction 
that continues. They come into our custody, they are treated, 
we try and stabilize them on medication and be able to get them 
functioning, only to be released from the system back out onto 
the street.
    Many are homeless, they go back to either skid row or 
living under a bridge or a freeway, and then re-offend and find 
themselves back in custody. A very expensive cycle, a very 
inhumane cycle of dysfunction that we need to break. What we 
need is additional funding and focus on community-based mental 
health care and treatment. To be able to provide alternatives 
to incarceration for people who can be better treated outside 
in a medical setting than in a custody environment.
    Ms. Jackson Lee. Chief.
    Chief Thompson. I would just briefly add that, you know, we 
have a lot of veterans coming back with PTSD that we are having 
to deal with. We also have citizens like my son, who has 
autism. And we are finding more and more situations where the 
actions, although they may appear to be criminal in nature, 
would be better served if we were to defer or get the people to 
the type of help that they need. And it is so important that we 
try to identify resources within our community and leverage 
those resources to assist those that are having some of these 
behavioral health issues.
    And just one last word on Autism. It is a growing epidemic. 
One in every 62 children born are on the spectrum and amongst 
boys it is 148. So, this is not a situation that is going to go 
away any time soon. So, we need to put energy and effort into 
dealing with our fellow citizens as they grow older because 
they do get older. As our little boy will be taller than me 
next year, probably, and he is only 12. But as a police officer 
and having him as a young Black male who is not going to 
understand some of the orders of police, I think I am in a 
unique position to try to help on both sides of this equation 
of how to respond and also how to give parents some assurance 
that we are going to do all that we can do.
    Ms. Jackson Lee. Thank you, Chief.
    Mr. Gowdy. Really appreciate it.
    Sheriff McDonnell. If I could, just to add on to the 
interaction of the police with the public as it relates to 
autism and other cognitive disorders. If we can find the way to 
provide crisis intervention training to all of our police 
officers and deputy sheriffs, that is another tool in the tool 
box. We train the academy command presence how to go in and be 
authoritative. Take control of a situation that is very dynamic 
and chaotic.
    If we do that with somebody that is autistic, we are going 
to guarantee that it is going to set them off based on their 
illness and we are going to end up with a potential use of 
force and a bad outcome. If people know what to look for based 
on their training and can look for cues in the environment and 
can recognize symptoms and come off with a different approach, 
we get a different result and everybody benefits.
    Mr. Gowdy. Thank you, Sheriff.
    Ms. Jackson Lee. Chairman, you have been very gracious. Can 
I just acknowledge a person in audience Mr. Chairman? It was an 
advocate of police union relations. Mr. Gerald Womack is here 
from Houston Texas, who has worked with the Chief and came here 
to acknowledge police, National Police week. Thank you so very 
much.
    Mr. Gowdy. Welcome, Mr. Womack. The chair will now 
recognize this gentleman from Texas, Judge Poe.
    Mr. Poe. Thank the chairman. Thank you all for being here. 
I assume that all four of you are here this week, along with 
thousands of other police officers and families of the slain 
officers to honor the fallen, not just from last year, but the 
previous years as well.
    Chief Acevedo, as you know, in Texas last year we had 21 
police officers killed and numerous others wounded. More killed 
in the State of Texas last year than any other State in the 
United States. Five of them were in the Dallas area that were 
ambushed by a sniper while a demonstration was taking place in 
the city of Dallas.
    Ironically, the officers were protecting the demonstrators 
and the crowd, and then the sniper opens fire. Took place over 
quite a long period of time. Five officers killed. Several 
others wounded. Citizens killed, and then, finally, the sniper 
was taken out, as he should have been, by law enforcement.
    So, as a member of this committee along with the others, we 
mourn the loss of all of those officers, plus the over 130 that 
were killed throughout the Nation. And thank you for being the 
head guy for all of those, for our department.
    Chief Acevedo, I want to talk a little bit about the 
Justice of Victims Trafficking Act that has been implemented. 
As you know the bill that passed overwhelmingly in the House 
and the Senate and signed by the President goes after the 
trafficker, and I call that person the slave master. Goes after 
the buyer, who is the consumer and then it also helps the 
victim and treats the victim like a victim of crime and not a 
criminal.
    The City of Houston recently had the Super Bowl and the 
City of Houston Police Department was in charge, and correct me 
if I am wrong, but Chief, I believe the City of Houston was in 
charge of the entire process on trafficking and making sure 
that those outlaws stayed out of our town during the Super 
Bowl. You worked with Federal, State, the NFL, and other 
organizations.
    My question to you is specifically on the bill goes after 
the buyer, the consumer. The person who buys sex, primarily 
with young children, and for years that person seemed to always 
get away with that conduct in our criminal justice system. Can 
you give me some success or not success of the law in taking, 
going after the buyers and Justice for Victims Trafficking Act 
in our City of Houston?
    Chief Acevedo. Good morning. Thank you so much. 
Unfortunately, the City of Houston is actually the epicenter 
for human trafficking and sex trafficking. It is nothing we are 
proud of, but it is something we are combating. Two things that 
we are doing that I think is really important.
    Number one, kind of General Kelly, Secretary Kelly is 
talking about, the war on drugs, you can focus on the people 
that are selling the dope or we can focus on treatment and 
going after the people that are buying it. In terms of this 
scourge, we do need and we are thankful of the fact that we are 
starting to focus on what we really need to be focusing on 
which is the consumer.
    In the City of Houston with the District Attorney's Office 
and the leadership of Kim Og and Mayor Turner and, obviously, 
the police department, we are now treating the victims as they 
are. These women are victims. These boys, these children, these 
girls are victims and we are treating them as such instead of 
treating them as suspects and consequently what we are doing is 
they are helping us identify the bad guys that are actually 
taking advantage of these folks, whether it is the trafficker 
or the john.
    And, one other thing that we are doing is we are actually 
publishing the photos of these people. Put them on notice 
first, before the Super Bowl, publishing the photos----
    Mr. Poe. Sounds like something I would have done as a 
former judge in the city.
    Chief Acevedo. Yes, sir. There were some interesting people 
that ended up in those pictures. I will just leave it at that. 
But, we are very grateful for that bill, and we are hopeful it 
will help us fight that.
    The last thing is, a lot of these folks are so traumatized 
that when they are stopped by law enforcement with the pimp, 
with the trafficker they are afraid to say anything. So, 
actually training police officers on what the indicators are, 
how to investigate somebody on the side of the road has gone a 
long way and I would encourage all police departments across 
the country to be required to have training in that area.
    Mr. Poe. Thank you, Chief, and I think the Mayor's office 
has a tremendously adequate and excellent protocol on dealing 
with the issue of human trafficking. I hope more cities take it 
in the future and will make us the hub of not trafficking, but 
the answer to trafficking.
    Last comment I wanted to make to chief or Mr. Canterbury. I 
want to thank you for supporting the bill that I have 
introduced to back the blue, the Back the Blue Act, which 
punishes outlaws more who commit crimes against police officers 
throughout the country. And with that, Mr. Chairman, I will 
yield back.
    Mr. Gowdy. Gentleman from Texas yields back. The chair will 
now recognize a gentleman from Louisiana, my friend, Mr. 
Richmond.
    Mr. Richmond. Let me thank all of you for being here and I 
will start with Mr. Canterbury since you represent so many 
people and I just want to start off that these are not 
``gotcha'' questions. So, if we can answer them quickly it will 
help get to where I want to go.
    Would you agree that so many municipalities and local 
leaders and States and cities and counties are so cash-strapped 
that they are using the police departments as a revenue 
generator from either fines or fees, citations, traffic 
tickets, et cetera? Do you think that policy fosters or hampers 
community police relations?
    Mr. Canterbury. It hampers community relations. In St. 
Louis, there were 68 police departments in that county issuing 
tickets. The FOP brought that to the forefront. We should never 
be used to generate revenue.
    Mr. Richmond. Let me ask you another question. You would 
agree that the street code of ``no snitching'' erodes the 
safety of those communities and it hampers law enforcement's 
ability to identify and convict criminals that are terrorizing 
those same communities?
    Mr. Canterbury. Absolutely.
    Mr. Richmond. And on the converse with the ``blue code,'' 
which has been termed as in terms of police officer's 
unwillingness or reluctance to do the same to other police 
officers that the fact that it is out there and people talk 
about it erodes the community's confidence in their police 
departments?
    Mr. Canterbury. I believe that the discussion of it erodes 
it. I, personally, do not think that the blue code exists to 
the extent that it is meant to be. I have seen officers that 
might turn a blind eye to a policy violation. I have never seen 
anybody turn a blind eye to a criminal violation.
    Mr. Richmond. The other thing is and you mentioned and I 
was glad to hear you say that you do not think, you know, they 
are real biases but you think some officers come in with their 
own personal implicit bias. And to the extent that chiefs and 
others have the ability to root that out, and most often I see 
at least in civil service or others that the union will always 
come to the defense, no matter how much evidence and I think 
that also erodes some community confidence.
    But let me ask you another question, because you mentioned 
the 18 officers this year. You talked about Baton Rouge, which 
is in my district. You did mention St. John a couple years 
earlier, which was in my district, and you talked about 
officers being gunned down, which is what we are concerned 
about. And, you mentioned home grown terrorism.
    But what I have not heard here today is the group Sovereign 
citizen that has killed more police officers than anybody else. 
And so, when we do not mention them, I think it gives the 
perception to the public that you have some outlaw, you know, 
urban kids or other people who are targeting police, which is 
an unfair depiction when we know Sovereign citizen, who they 
are, and we never ever talk about them or call them by name. 
And my law enforcement officers tell me they are more concerned 
about stopping a car that is a Sovereign citizen than any other 
thing on the job. Would you kind of agree with that?
    Mr. Canterbury. I think Sovereign citizens are a scourge on 
this country and I think that it is not covered by the media 
the way it should be, but I think law enforcement is extremely 
concerned about Sovereign citizens. There is a number of 
incidents, Baton Rouge, the assailant professed to be a 
Sovereign citizen.
    Mr. Richmond. And so, in St. John Parish, where we lost 
deputies, both in my district, were both sovereign citizens. I 
am on Homeland, I am on Judiciary, and I am the only one that 
talks about sovereign citizen. And that concerns me and I think 
that if you can talk about it at least with my colleagues, it 
will help us, because it will get to my last point, which is 
you all are out-gunned.
    They have better ammunition. They have higher capacity 
cartridges. They have better bullets that go through the body 
armor that you have and they have better body armor. So, if we 
talk about Baton Rouge specifically, those officers got out of 
those cars with hand guns and he had a long gun with a vest on. 
A long gun that he probably invested about $5000 in. There was 
nothing that could have saved them. Not their helmet, not their 
shield, not their car door. His bullet would have went through 
everything.
    So, we have to have an honest conversation about what 
people on the streets can buy and whether there is a need for 
it, because our officers are walking into situations where it 
is Iraq, except they are armed as a crossing guard and the bad 
guys are armed as terrorists. So, if you could help us, and we 
are not talking about taking people's guns. We just want the 
police to be on a fair footing with the criminals. Could you 
respond to that?
    Mr. Canterbury. Mr. Richmond, in the last 10 or 15 years I 
have seen a big shift in law enforcement perspective on the 2nd 
Amendment, and our position has been that better background 
checks, mental health records being available to conduct those 
background checks, would go a long way. The assault rifle bill 
that was signed in by President Clinton, the numbers did not 
prove, at the conclusion, that that bill had any success in 
reducing the number of guns that were sold or the number of 
crimes committed.
    So, I think preventing those people from getting those 
weapons that should not have them should be the first and 
foremost thing that we should work on.
    Mr. Richmond. Mr. Chairman, can I just end with a comment?
    Mr. Gowdy. Sure.
    Mr. Richmond. The FN57, which is a hand gun which will go 
through body armor. It has no knock down power so it cannot be 
self-defense, it is sold in Cabela's and everywhere else. It is 
strictly a killing gun. So, the question is, do we have the 
need for that and just anecdotally on assault weapons band, I 
was a kid during those times and I do not know what the data 
shows, but I know the street value and the street cost of a 
AK47 at that time went from 400 to 500 in the store or on the 
streets to 1,500. So, it made it a little bit harder for 
somebody to buy that gun and hopefully calmer heads prevailed 
before they were able to purchase it. So, that is just my life 
experience. But thank you all for what you do. Mr. Chairman, 
thank you for letting me go over.
    Mr. Gowdy. Thank you, gentleman from Louisiana. The chair 
will now recognize the gentleman from Texas, the former U.S. 
Attorney, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Chairman. Gentlemen, thank you 
all for being here today. I am sure over the course of this 
week, Police Week, you are going to receive a lot of kind words 
and praise, and it is certainly richly deserved.
    As U.S. Attorney under President Bush, the opportunity to 
serve as the top Federal law enforcement officer in the eastern 
district of Texas gave me the opportunity to stand shoulder-to-
shoulder with so many officers and police departments across 
the 33,000 square miles of that district and really instilled 
in me an appreciation that I did not have before about what 
your men and woman are asked to do every day. The sacrifices 
that they are asked to make and the circumstances under which 
they are asked to make them and to my mind, every week should 
be police week in this country.
    But rather than just talking the talk as legislators. We 
need to put words into action. We need legislation that does 
more than just say that we are grateful that proves that to 
you. We have had a lot of great comments, even on this 
subcommittee today from members on both sides of the aisle. Two 
of you, specifically, mentioned one specific piece of 
legislation that I introduced last congress and again this 
congress, which is the PLUSE ACT, Protecting Lives Using 
Surplus Equipment, and it was legislation that became necessary 
when the prior Administration decided to restrict the 1033 
Program and actually take back some of the equipment that had 
been transferred to law enforcement agencies under the program 
through the Department of Defense.
    I want to yield my time to you all. You have had some 
opportunity to talk about it, but one of the things and we have 
had a chance, many of us, to talk before. Mr. Canterbury 
working with your folks on this particular issue. I cannot tell 
you how much we appreciate it and how much we look forward to 
continuing to engage. Chief Acevedo, you and I had a chance to 
talk about this issue a few months ago at an event.
    But, you know, there is a narrative out there, a false 
narrative in some folk's mind that this is Barney Fife from the 
Andy Griffith Show playing weekend warrior with RPGs. And so, 
there is a misconception about what the equipment involved is 
and what it really means. And, you know, Sheriff McDonnell, you 
live right next door to the jurisdiction where the San 
Bernardino attack happened.
    So, you know, I would really like you to take a few minutes 
and talk about the fact that this is not theoretical and that 
this particular program, what it really means in terms of 
saving lives, not just of officers, but of the citizens that 
they protect. And I would like to yield to you, all of you in 
that respect.
    Sheriff McDonnell. Well thank you, thank you for that 
opportunity. We touched on that briefly. The 1033 Program has 
been very valuable to State and local departments in the 
ability to be able to have the tools necessary to respond to 
those calls that are certainly out of the ordinary. But when 
you need the equipment, you need the equipment. To be able to 
put yourself in an armored vehicle between the suspect and some 
downed citizens, some downed officers to be able to affect a 
rescue, those seconds, sir, are life-saving.
    So, to be able to get in there without waiting, to be able 
to have the tools necessary, and rapidly deploy them. If we are 
waiting for some entity that is far away to be able to respond, 
this stuff as you see all the time on TV, these active shooter 
situations often are over in seconds or minutes. To be able to 
mobilize, get the equipment there, and be able to do what needs 
to be done in a way that is as safe as possible, the 1033 
Program has given us tools that otherwise we would not have 
had.
    Chief Acevedo. And I would like to add, also, from Houston, 
that without this equipment, you know, we learned in Katrina 
that if you are going to wait for the Federal Government to 
come and save you, you are going to be waiting for a while. And 
so, the more that we can equip our local agencies to be 
prepared for all threats, whether it is by nature or the next 
multi-shooter incident you might have from homegrown extremist 
to Sovereign citizen or an overseas ratified person, the better 
off we are going to be.
    Again, our high-water vehicles when, you know, Houston is 
very, it is basically at sea level and when those rains come in 
we deploy these vehicles and some people, again, think about 
Iraq, but there is no offensive capability with 99 percent of 
the equipment that we are talking about. It is all equipment 
that helps us just conduct our everyday mission of keeping 
Americans safe.
    Chief Thompson. And I would just like to add for those 
departments that are kind of strapped financially, being able 
to get this equipment at a lower cost is advantageous to us, 
because to try to get some of the equipment from the private 
sector is extremely costly. And it is cost-prohibitive for us. 
So, it is a valuable tool or resource for us.
    Mr. Ratcliffe. Well, you know, I am not sure there is 
another occupation out there where someone is expected to make 
correct, split-second, sometimes life and death decisions while 
navigating complicated laws and procedures. In the process, 
laying his or her life on the line for total strangers for 
relatively little compensation, and where every aspect of those 
actions draws public scrutiny and in some places criticism from 
sectors through the public or the ports. That is what your 
folks do every day.
    I hope there is a special place in heaven for folks like 
that and again, I think every week should be Police Week. So, I 
appreciate you all being here today. Please communicate that to 
the brave men and women that work with you, and I will yield 
back.
    Mr. Gowdy. The gentleman from Texas yields back. The 
chairman will now recognize his friend from New York, Mr. 
Jeffries.
    Mr. Jeffries. I thank the distinguished Chairman for his 
leadership and for yielding as well as this distinguished panel 
for your presence here today, your service to this country.
    If I could start with Chief Acevedo, the Department of 
Justice, under Attorney General Sessions, is now calling for a 
review of consent decrees involving local police departments, 
and it appears that they have attempted to stop movement in 
that direction as it relates to the Baltimore Police 
Department, which has had a history of problems highlighted by 
the Freddie Gray matter, but a series of other issues as well.
    Now, I believe that you came to the city of Houston and 
previously was in the city of Austin. Is that right? And during 
the time with Austin PD, I think, there was a Voluntary 
Cooperation Agreement between the Department of Justice Civil 
Rights Division and the Department in Austin. Is that right?
    Chief Acevedo. Yes, there was, we were investigated, 
pattern and practice investigation by the Department of 
Justice. It lasted about 4 years the entire process. But rather 
than enter into a consent decree and the challenge with consent 
decrees is a lot of money goes into what I described earlier as 
a cottage industry of these folks that get paid to, and have a 
vested interest of never getting out of a consent decree.
    For example, in Chicago it cost about $6 million in 
litigation. If we can use consent decrees as a last step for 
cities and counties that do not want to be helped by the 
Department of Justice and spend those precious dollars on 
training and equipment and the things that really will change 
outcomes, we are better off. And so, we are actually going to 
have a meeting with the Attorney General's folks, the Civil 
Rights Division in 2 weeks. The agency chiefs and to talk about 
this issue.
    We do not want them to abandon them, but we think that 
cooperative agreements with teeth in them, without these 
monitors, these monitors that are sometimes getting, 1-, 2-, $3 
million a year may be better for the tax payers.
    Mr. Jeffries. And what were some of the policy and 
programmatic changes that were made as a result of this 
voluntary agreement?
    Chief Acevedo. Oh, lord, I mean for me it was a great tool 
to have at the Department of Justice as a new chief in Austin, 
because quite frankly they were validating what this new chief 
that came from the outside from the State of California was 
observing. Our systems, our processes, our policies were so 
outdated. Use of force, we would wait, there would be a check. 
If I used my PR 24, which is my baton on somebody, we would 
have a sergeant come to the scene in Austin at the time to 
assess to what was the use of force? To document the use of 
force.
    And so, we changed, we had 163 or so recommendations and we 
implemented 161 of them. So, it is a great partnership, a great 
tool and we hope that the collaborative agreements will be the 
preferred method moving forward with the consent decree being 
the final step. And, quite frankly, without the Department of 
Justice, a lot of the cities and counties simply will not 
invest in the training and the equipment the police officers 
need to do a very complex job unless they are forced through 
these agreements in terms of the Department of Justice.
    Mr. Jeffries. So, it is fair to say as a result of the 
Department of Justice's engagement, involvement, presence, that 
the Austin Police Department was able to modernize itself and 
significantly improve the relationship between the police and 
community, is that right?
    Chief Acevedo. Yes, sir.
    Mr. Jeffries. Now, I know Sheriff McDonnell, I think the 
L.A. Counties also had some experience with the consent decree, 
is that right?
    Sheriff McDonnell. That is correct.
    Mr. Jeffries. And the consent decree came about as a result 
of allegations, accusations of the excessive use of force 
directed, in particular, at communities of color. Is that 
right?
    Sheriff McDonnell. That is one of them. We have one in the 
jails and we have one in the Antelope Valley.
    Mr. Jeffries. And can you tell me about your experience 
with the Department of Justice, and has it resulted in positive 
changes resulting in improved safety of facilities, kept 
officers safer and potentially improved the relationship 
between the police and the community?
    Sheriff McDonnell. Well, I also have prior experience with 
LAPD with long term consent decree as well. And to echo some of 
the comments here before. It is a vehicle for change, for 
positive change. It needs to be managed in a way in a macro 
sense, so that it does what it is intended to do. That the 
things that are being counted are things that matter in change. 
A lot of times you will have a consent decree with a number of 
different recommendations for change. The completion of the 
consent decree is contingent upon some of those will affect 
organizational change, cultural change, and some of them are 
more check the box kind of things, which are not as helpful.
    Mr. Jeffries. Can you give me one example, as my time 
expires, of the type of thing that could affect organizational 
change in a positive direction?
    Sheriff McDonnell. Absolutely, in looking at pattern and 
practice in the Antelope Valley racial profiling allegations we 
were able to drill down on that where were measuring what is 
occurring out there. I think our greatest measure is public 
satisfaction.
    There was a recent article done by the L.A. Times measuring 
where we were prior and where we are today and it was very 
complementary of the change within the organization as it 
relates to police community interaction. So, we are very proud 
of that.
    Within the custody environment, that is a different place 
today than it was a few years ago. We are very proud of the 
progress we have been able to make there. Our uses of force, 
significant uses of force by deputies on inmates is down 
dramatically. And, when we look at the population at the jails 
that we have in California, they have changed dramatically. A 
much more sophisticated, much more violent criminal in for much 
longer period of time than previous. So, the challenges are 
greater, but we are managing them, I think, much better than in 
past years.
    Mr. Jeffries. Thank you, Sheriff, and I would hope that 
this committee would consider strongly taking a position that 
the Department of Justice should proceed carefully with any 
effort to eradicate oversight, accountability, involvement and 
just work to establishing the best productive relationship as 
possible. Thank you, I will yield back. Thank you, Mr. 
Chairman.
    Mr. Gowdy. Gentleman from New York yields back. The chair 
will now recognize the gentleman from Michigan for purposes of 
introducing his opening statement.
    Mr. Conyers. That is what I want to do. I ask unanimous 
consent.
    Mr. Gowdy. Without objection.
    Mr. Conyers. Thank you.
    Mr. Gowdy. Thank you. The chair will now recognize the 
gentleman from Texas, Judge Gohmert.
    Mr. Gohmert. Thank you, Mr. Chair, I appreciate the 
witnesses being here today, but I appreciate even more the jobs 
that you do and serving people and your cities and the country.
    I want to follow up on the consent decree issue, and I 
guess we are all affected by our own personal experiences. But 
based on my experiences having been a prosecutor, and then 
doing mainly civil litigation but getting court appointments 
time to time but also being a felony judge and a Chief Justice, 
I have seen it from a lot of different angles. And it lead me 
to believe that my friend and he is a brilliant intellect had 
clerked for the Supreme Court, he is just a smart guy, Mark 
Levine had said he felt like the consent decrees were being 
used to federalize local police departments.
    And, it certainly appeared from what I had seen personally 
that when departments were having to spend money and time on 
the experts they really do, they make a career out of being 
expensive and being indispensable under consent decrees that 
there is a lot of money wasted on those people that should be 
wasted, not wasted, but actually spent where it is more 
productive on people, manpower, and equipment to keep them 
safe. And, it always seemed to me having watched a Federal 
judge there in my hometown of Tyler take control of the State 
prison system as, he was the legislature executive and judicial 
branch all in one as he managed the prison systems in Texas 
for, I do not know, over 30 years, I think. That that certainly 
seemed unconstitutional that no one person should have that 
kind of authority for that period of time to run facilities and 
systems.
    But again, that was under a decree that was agreed to, 
basically, giving the Federal Government one Federal judge, 
that kind of control. But, I had a court appointment who told 
me that after the Federal judge took control of the Texas 
Prison Systems, he had been in prison before, and he had been 
in after. And there was night and day difference after the 
Federal judge took control. He was in much more danger, and it 
was much more difficult to do time in prison.
    But in any event, it seems like if there is a problem, I 
always felt like there should be a lawsuit. Get it straight. 
But the oversight does not continue. It just ends up if we have 
to come back, it is going to be more expensive again. And then, 
leave it to the locals to clean it up with their knowledge that 
if they do not, the Federal Government will come back in. And 
it will be more expensive and costly next time. I do not 
believe, has Houston been under a consent decree? I did not 
think you had.
    Chief Acevedo. No, sir, not that I am aware of. I have only 
been there 6 months, and I am pretty certain we have never been 
under a consent decree.
    Mr. Gohmert. And I would hope that is not something you 
were looking forward to.
    Chief Acevedo. That is a lotto ticket no police chief would 
like to win, to be honest with you.
    Mr. Gohmert. Well, Sheriff McDonnell, I get the impression 
that is not someplace you wanted to be either, right?
    Sheriff McDonnell. That is correct.
    Mr. Gohmert. Okay. Well, I also wanted to ask you about 
something that has constantly come up over the 8 years. This 
emphasis on people in Federal prison for simple possession, and 
the public was given the impression that we had lots of folks 
in Federal prison for simple possession. And my experience was 
that if there was nothing but simple possession, the Feds left 
that to the State for prosecution. About the only time we 
hardly ever saw the Feds take a simple possession was when 
somebody agreed to a plea agreement to testify, and in return 
they would only pursue the possession.
    For those who say that drug crimes are victimless crimes, I 
would just like to finish by hearing each of your opinions on 
whether or not simple drug offenses are victimless crimes. 
Sheriff McDonald, if you could?
    Sheriff McDonnell. You know, I look at simple possession 
cases in the State of California based on Prop 47 are now a 
citation, not just once, but every time you are caught. And it 
does not matter the type of drug, so we are probably in a 
different place than many States.
    But the drug market, the drug industry if you will, drives 
crime. It is organized crime. The cartels are involved. There 
is violence associated with it from the lowest levels to the 
highest levels.
    So, to say that it is a victimless crime I think is very 
wrong. When you look at what is happening today across America 
with our opioid crisis, and you see we are losing 91 people a 
day in this country to overdoses primarily from opioids. And 
you look at that, and you just see these are primarily young 
kids, 18 to 25. And Fentanyl has now been introduced to the 
market, which is extremely powerful, deadly in some cases, with 
carfentanil, in particular. And you look at where that is 
taking us.
    At the same time, we are moving away from using the tools 
of the justice system to be able to deal with drugs, and I do 
not believe that those are the tools that should be used 
solely. It is a health problem. It needs to be dealt with as a 
health problem, but I think we also need to be able to have 
leverage to be able to get people into treatment. We have lost 
that in California. By having that leverage using the criminal 
justice system, we have the ability to get people into 
treatment and hopefully be able to get their lives back on 
track. Without that leverage, people do not have the ability, 
based on their addiction, to get themselves into treatment and 
to be able to break that cycle of dysfunction that we see too 
often.
    Mr. Gohmert. I ask the chairman's indulgence. If I could 
have all three answer that question?
    Mr. Gowdy. I am the only one that has not asked their 
questions yet. I was trying to get done by noon, but if you can 
accommodate Mr. Gohmert with whether or not drugs are a 
victimless crime, I am happy to wait longer.
    Mr. Gohmert. Chief Thompson.
    Chief Thompson. Not a victimless crime, but we do, 
especially for the first offender, is try to defer what we can 
from court to get the type of assistance that they need to stop 
their dependency. And most of the cases are handled at the city 
and county level or State level for us, with State statutes. 
And we are not filling the Federal Government or Federal 
penitentiary to the simple possession.
    Mr. Gohmert. Thank you. Mr. Canterbury.
    Mr. Canterbury. The vast majority of traffickers in the 
Federal sector are very involved in the violent side of 
narcotics. It is a misnomer that the Federal prison is full of 
nonviolent drug offenders.
    Mr. Gohmert. Thank you.
    Chief.
    Chief Acevedo. Well, I do not have the data with me, but I 
think we need to be smart on crime, especially at a time where 
we have limited resources. So, we need to distinguish between 
those that are simple users that, as Secretary Kelly has said, 
we need to start getting those people treatment, not putting 
them in prison. We were charging people with felonies for 
having three bindles of cocaine for personal use. We have to 
differentiate true dealers that are out their poisoning our 
streets with people that are just addicted. So, treatment goes 
a long way in getting rid of the underlying problems.
    Mr. Gohmert. Thank you, Chief. Thank you, Mr. Chairman.
    Mr. Gowdy. The gentleman yields back. The chair will now 
recognize himself. I want to thank all four of you for being 
here today and for your service for our country. I am going to 
confine my interactions with my own police chief and start by 
thanking you and your family who is with you today for your 
service to our community and other communities throughout your 
distinguished career. We are really fortunate to have you in 
Spartanburg, and Tim Scott and I want to thank you for helping 
us with our police community relations roundtables. As you 
know, they are confidential because we want people to tell the 
truth, and your voice is an important one that we have 
benefitted from.
    Your predecessor was a really good friend of mine, Tony 
Fisher. He also is a law enforcement officer of color, without 
whom I never would have been elected District Attorney. So, if 
folks are looking for someone to blame for me being in public 
service, Tony Fisher would be the person to blame.
    And Tony and I would lament from time to time the notion, 
the deeply-held notion, within certain communities that victims 
of color were valued less than white victims. In homicide cases 
in particular, that the sentences did not reflect valuing the 
lives of Black victims the same as White victims. And it is 
interesting to have that conversation with a law enforcement 
officer of color who well knew prosecutions are only as good as 
the evidence that we are given.
    So, when you say community relations, the first thing I 
think of is how do we get the community to trust you and your 
officers enough to give us the information we know that they 
have to present the evidence we know that they possess, so we 
can value the lives of people of color in exactly the same way 
we do as white victims? How do we do that?
    Chief Thompson. I do not think it is an easy fix, sir. But 
as I have mentioned earlier, it is what you do before crimes 
and situations arise. You know, there is no substitute for 
quality, professional, and equitable service, and respectful 
service in dealing with our citizens in all areas of our city. 
But breaking down these unfortunately historical or traditional 
barriers between police and the community are hard. I will say 
that this no-snitching or not telling the police, giving us 
what we need to solve crimes, is not as significant as we may 
think it is because otherwise, we would have solved nothing.
    Information is definitely power. We would not get 
information readily at the scene, but oftentimes because of 
relationships built, we will get that anonymous call of someone 
giving us what is necessary to identify someone responsible and 
eventually bring them to justice.
    But like you and Director Fisher, that is a tremendous 
frustration because we value life, but the community that is 
being hurt by this violence has to value life, too, and 
stepping up to do what is necessary to bring the people that is 
responsible for causing the pain and the hardship back to 
justice.
    And really, relationships, if there is one thing that I can 
just stress. When we go to calls, we are not being invited over 
for tea or barbeque, obviously. But when we can get together 
during non-contentious times, and break down those barriers 
into where we see that we have a singleness of purpose. We do 
care about the community.
    For example, I try to lead by example by being a mentor, so 
being on boards. For example, I chair the Boys and Girls Club 
in the upstate of South Carolina. I am on AMI White Pines Kids. 
These are kids that have run afoul of the law. Being intimately 
involved, and the people see that you are sincere in your 
efforts to assist and that we are not just some entity to come 
in, effect an arrest, write a ticket, and leave. I think that 
starts us on our way of getting the type of information that 
you are wanting and that we are needing to be successful in our 
prosecution of perpetrators of crime.
    Mr. Gowdy. Well, you and your officers are incredibly 
active in our community, and I regret deeply that it takes a 
funeral for some of your guys and gals to know how appreciated 
they are. The community outpouring of support for your agency 
was incredibly, tragically beautiful to watch. I just hate that 
it took Jason Harris' life, and it does not have to do that. I 
hope your officers feel appreciated, even on the days they come 
home safely.
    So, I will say this, when you were making your opening 
statement, I was sitting here writing a summary. The pay is 
low. The work is hard. The danger is intense. The scrutiny is 
exacting, and the margin for error is zero. I do not know how 
in the hell you recruit anybody for that line of work. I just 
do not. So, in a world clamoring for bipartisanship and 
apolitical causes, I hope you can take back to all of your 
agencies and entities that Republicans and Democrats, at least 
on this subcommittee, greatly value your work.
    And we are cognizant of the sacrifices that not just you, 
but also your officers and their families, make. And if you 
would let them know that and to Johnny Ratcliffe's point, we 
will try to communicate that the other 51 weeks out of the 
year, too, and not just this one. So, with that, thank you for 
your service.
    Ms. Jackson Lee. Mr. Chairman.
    Mr. Gowdy. Yes, ma'am.
    Ms. Jackson Lee. Let me, first of all, ask unanimous 
consent for statements to be put in record. Mine, I think you 
did general leave, and then a letter dated from the ACLU, dated 
May 17th.
    Mr. Gowdy. Without objection.
    Ms. Jackson Lee. And then, just to associate myself with 
the comments of the chairman as he concludes is that there is, 
you have a blue line. There is legislation called the Thin Blue 
Line, but there is no divide in the affection that we have for 
those who are on the front line for all of us.
    And the questions that we have asked, I believe, are both 
instructive and productive for us ensuring that we are both 
working in commonality, and respect, and dignity. And we 
certainly offer our sympathy this week for those who have 
fallen. And we commit ourselves to make that zero as we work 
with our communities and our young people across the Nation. 
And I thank you, Mr. Chairman, for yielding.
    Mr. Gowdy. The gentlelady yields back. The other members 
will have 5 legislative days with which to submit additional 
questions for the record or any other extraneous materials. 
With that, we are adjourned. Thank you for your service.
    [Whereupon, at 12:00 p.m., the subcommittee was adjourned.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
